|

C@OQCKLE

; E-Mail Address:
Le Ba 1 Brie f s contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-843

NEW YORK STATE RIFLE & PISTOL ASSOCIATION,
INC., ROBERT NASH, BRANDON KOCH,
Petitioners,

v.
KEVIN P. BRUEN, in His Official Capacity as
Superintendent of the New York State Police,
RICHARD J. MCNALLY, JR., in His Official Capacity as
Justice of the New York Supreme Court, Third Judicial
District, and Licensing Officer for Rensselaer County,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of July, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF PROFESSORS ROBERT LEIDER AND NELSON
LUND, AND THE BUCKEYE FIREARMS ASSOCIATION AS AMICI CURIAE IN SUPPORT OF PETITIONERS in the
above entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
DEREK DEBROSSE RONALD JAMES LEMIEUX
Counsel of Record Co-counsel
CHESHIRE DEBROSSE, P.C. #0093536
503 South Front Street, P.O. Box 19183
Suite 240B Cleveland, OH 44119
Columbus, OH 43215 (216) 339-3284
(888) 399-7863 rlemieux@
derek@MunitionsGroup.com ronaldlemieuxlaw.com
Not admitted to the
Attorneys for Amici Curiae . U.S. Supreme Court

Subscribed and sworn to before me this 20th day of July, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

   
  

    

Leos OQudia-h. Chl

Affiant

 

a WOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 6, 2023,

 

Notary Public 5
Barbara Dale Underwood
Solicitor General

Office of the Attorney General
28 Liberty Street

New York, NY 10005-1400
(212) 416-8016
Barbara.underwood@ag.ny.gov

Counsel for Respondents

Paul D. Clement

Counsel of Record
Erin E. Murphy
Kasdin M. Mitchell
Nicholas M. Gallagher
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioners
